IN THE SUPREME COURT OF THE UNITED STATES

FILED
DEC 1 5 2020

James W. Knipfer,
Petitioner pro se,

v.
Wisconsin Attorney General.

PETITION FOR A WRIT OF
CERTIORARI

I
\

c.kj- ■

James W. Knipfer #235937
SCI 100 Corrections Drive
Stanley, Wi 54768-6500

1
V

supl^a^Fcoij^L^pK

i

's

QUESTIONS PRESENTED

I, James W. Knipfer, am a State of Wisconsin Prisoner who has
been attempting to appeal my illegal convictions. The violations
by Judges.and Government officials keep mounting. First there was
a mentally ill Judge who made numerous erroneous rulings. He died
from his disease. Then there was a Public Defender/Appellate Lawyer
who stole the master record from the courthouse, causing great d
delays. Then a series of new Judges who were very confused about
jurisdiction and refused to consult the record for verification
of errors I brought to their attention. Next, the Assistant A/Gs
who argued theories of law that were not relevant, mistated dates,
confused names and records with some one not I. Then the County
D/As a.-o refused to comply with record requests that clearly
favored my position. I have endured a series of lower courts
refusing to do their jobs, REVIEW MY CASE. My Constitutional Rights
have been shattered. I have diligently and properly followed the
rules and proceeded to Federal Court on a Writ Of Habeas Corpus.
The Federal Court dismissed and denied a COA.
The QUESTIONS PRESENTED in this Petition are:
IK

CAN THERE BE A "PERPETUAL JURY", "PHANTOM JURY", "FOREVER
JURY" or a "JURY on a JUDGES WHIM", in the UNITED STATES?

M.-

DID THE 7th CIRCUIR CASE LAW PRESENTED PROPERLY
INVOKE JURISDICTION IN THE TRIAL COURT?

mi •

WHEN THE LOWER COURTS FAIL TO REVIEW A CASE IS IT PROPER
FOR THEM TO DISMISS BY DEFAULT AND BLAME THE PETITIONER
FOR NOT DEVELOPING THE ISSUES?

A,

V

1*.

$

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES
OPINIONS BELOW
STATEMENT OF JURISDICTION
CONSTITUTION PROVISIONS AND STATUTES INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

f

:T

I.

CAN THERE BE A "PERPETUAL JURY", "PHANTOM JURY", "FOREVER
JURY" or a "JURY on a JUDGES WHIM", in the UNITED STATES,

II.

DID THE 7th CIRCUIT CASE LAW PRESENTED PROPERLY
INVOKE JURISDICTION IN THE TRIAL COURT?

III. WHEN THE LOWER COURTS FAIL TO REVIEW A CASE IS IT PROPER
FOR THEM TO DISMISS BY DEFAULT AND BLAME THE PETITIONER
FOR NOT DEVELOPING THE ISSUES?
CONCLUSION
APPEDIX

)

7
!

iii

TABLE OF AUTHORITIES
1 .

Allen v- State, 85 Wis. 22, 54 N.W. 999 (1893)

pg 5

2.

State v. Coulthard, 171 Wis. 2d 573, 492 N.W. 2d 329
Ct. App. (1992)

pg 5

3.

Brown v. Payton, 544 U.S. 133, 141,

pg 6

125 S.ct. 1432, 161 L.ed. 2d 334 (2005)

<1

Y

4.

Jordan v. Hepp, 2017 U.S. Dist. LEXIS 76641 3 & 4

pg 6

5.

Morales v. Johnson, 659 F. 3d 588
2011 U.S. App. (7th Cir.) LEXIS 19272

pg 6

6.

Taylor v. Grounds, 721 F. 3d 809, (7th Cir. 2013)
citing U.S.C. §2254 (e) (1)
(quotation and citation omitted).

pg 6

7.

Williams v. Taylor, 529 U.S. 362, 404
120 S.ct. 1495, L.ed. 2d 389 (2000)

pg 6

8.

U.S.C. §2243 pre AEDPA Standard

pg 6

9.

U.S.C. §2254 (d) (1) & (2)

pg 6

10.

U.S.C. §2254 (e) (1)

pg 6

11 .

Wisconsin Constitution Amendments, 5th, 6th, & 14th

pg 5

08

\

1
James W, Knipfer respectfully petitions this Supreme Court
for a Writ of Certiorari to resolve the confusion and in-actions
of the lower courts. The lower courts are defying 7th Circuit
mandates and not addressing the core issues presented, even
complaining about reading too much of the record. There simply
cannot be a "Perpetual" or "Phantom" Jury in United States Law.
OPINIONS BELOW
In September of 2017, I filed a Motion To Vacate in the
Columbia County Circuit Court, claiming Judicial Misconduct.

)
v. '

The Motion was denied by Judge W. Andrew Voigt. Then in July of 2018
I filed a similar Motion, including a full explanation of why
that court had Jurisdiction per 7th Circuit Case Law and mandates.
That Motion was denied ARBITRARILY, by Judge Voigt. I appealed
and the Court of Appeals denied to even review the issues, stating
they feel they are reading too much of the record. Those circuit
court Motions were 3 pages and 4 pages long! The Wisconsin Supreme
Court denied any review. I then filed a timely Habeas^ Corpus
Petition with the Western District Federal Court. Judge Barbra Crabb
wrote me a letter asking questions that were clearly answered in
my petition. I responded with a 3 page document and Judge Crabb
dismissed my petition several days later. Judge Crabb also vehemently
told me that I cannot apply for a COA, so I could appeal to the
7th Circuit. I did ask the 7th Circuit for Special Permission to
proceed on appeal, on May 25th, 2020.
JURISDICTION
The Western District Court entered its decision on 5-19-2020,
and demanded that I cannot apply for a Certificate of Appealability.
Thus, this Petition timely invokes this Court's Jurisdiction under
28 U.S.C. §2254.

6

2

o\

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
Allen v. State: Holds that once a Jury alters any verdict
there is no verdict.
Coulthard v. State: A Jury was recalled 2 years later, but did
not alter or change any verdicts.
Brown v. Payton: A state court unreasonably applies clearly
established precedent if it identifies the
correct governing legal principle but unreasonably
applies that principle to the facts of the case.
Jordan v. Hepp: Standard of review (reasonableness)
Morales v. Johnson: When no state court has squarely addressed
the merits of a habeas claim, review is
under pre AEDPA standards.
Taylor v. Grounds: A federal court may conclude that a state
court decision was based on an unreasonable
determination of the facts, only if rests
upon factfinding that ignores the clear and
convincing weight of evidence.

i

Williams v. Taylor: A state courts I ( decision is contrary to clearly
established federal law if it reaches a legal
conclusion in direct conflict with a prior
decision of the supreme courtt or reaches a
different conclusion than the supreme court
based on materially indistinguishable facts.
U.S.C. §2243

t
'\
i

Pre AEDPA Standard for review

U.S.C. §2254

Unreasonable determination of the facts,
hence, no determination at all.

U.S.C. §2254 (e)

Clear and convincing Standard.

Wisconsin Const:

5th, 6th, & 14th Amendments, granting basic
rights to a fair procedure, right to be heard
double"'" j eopardy protections-

3
'“I

k

STATEMENT OF THE CASE
This action is derived from a 1992 Columbia County Case.
The trial was held in January of 1993. There was no direct appeal
because the Appointed Appellate Attorney stole the record from
the courthouse. The Board of Atty Responsibility took up the
matter and reinstated my appellate rights, stating "...there are
numerous issues Knipfer can appeal on..." thus granting a green
light to appeal, as long as I proceeded pro se. I filed a 974.06
"Habeas Corpus". The trial court denied it? The court of appeals
said there was little or nothing to review because the trial court
did not do its job. Petition denied but not REMANDED. The Wisconsin
Supreme Court denied review. I filed a Federal habeas Corpus and
it was dismissed because they said I missed the AEDPA deadline by
a few days. I filed a Motion for Reconsideration and appended a
copy of the court docket, showing I had a pending Motion, which
stopped the AEDPA clock. The court denied and said I had to file
for a Certificate of Appealability, case dismissed. Now comes
contemporaneous case law and mandates from the 7th Circuit Court
of Appeals, mandating that all courts must do their jobs. Piece
meal litigation is forbidden. Under these latest cases, the trial
court has a duty to "address the issues squarely, and rely on the
record, not falsehoods presented by a party." I filed a Motion
To Vacate pursuant to the case law submitted. The trial court
denied that Motion believeing it did not have jurisdiction. I then
realized that the trial court was missing 13 years worth,oof the
record, therefore, unable to render a proper ruling. I filed a
second Motion To Vacate The trial court denied that Motion
stating there was no new issues presented. The trial court never
addressed any issues in the first Motion. In the second Motion
I explained why the trial court had jurisdiction, thus that
Motion was one page longer than the first Motion. Now, once again
I am before this court with the same recurring problem, over a 25
year period, the lower courts are not reading the record.

t
\

4
1
(

I appealed and the Appellate Court complained they are reading
too much of the record and denied review. I filed a Petition
for Review with the Wisconsin Supreme'•Court and it was denied.
Next I filed for Habeas Corpus relief with the Western District
Court. Judge Crabb wrote me a letter asking questions that should
have been quite obviously answered had she read the Petition.
I responded to her letter politely and she denied my Petition.
Judge Crabb went on to vehemently scold me and tell me I cannot
apply for a COA f f to move on the 7th Circuit (where the issues
presented might have been resolved since I used 7th Circuit case
law to invoke jurisdiction in the trial court.) Judge Crabb dated
her denial 5-19-2020. I did file a Motion with the 7th Circuit
asking for leave to proceed under Special Circumstances. I have n
not heard back as of this writing. I now timely am Petitioning
this Supreme Court for a Writ of Certiorari in hopes of resolving
my 3 decades long ordeals.
REASONS FOR GRANTING THE WRIT
This Court should summarily grant relief. After almost 30
yearsJ the lower courts made it clear , they do not want to adjudicate
this case. The lower courts have chosen to use "catch phrases"
instead of reading and revealing the truth. This court should be
all about the truth & Manifest Injustice. There is no place in the
Judicial System for GHOSTS and PHANTOMS. Dead people really cannot
speak to a court. Mentally ill Judges can be corrected in a very
repectful manner. I believe this case warrants serious review by
this court and some very serious precedents set to guide the lower
courts for this case and all others after me.

cl

5
.*1

\

t

I.

CAN THERE BE A "PERPETUAL JURY", "PHANTOM JURY", "FOREVER
JURY" or a "JURY on a JUDGES' WHIM", in the UNITED STATES?

There are cases where a Jury was returned to the court, but these
Juries did not change any verdicts. Some were re-sworn, mine was
not. (See State v. Coulthard, 171 Wis. 2d 573, 492 N.W. 2d 329
' Ct. App. 1 992. )
The case law is clear, when any Jury alters its
VERDICT, the VERDICT must be disguarded. In this case the criteria
was met, and the original Jury was dismissed. 5 days later, the
now "PHANTOM JURY" was re-called and they altered a VERDICT, then
once again, were thanked and dismissed.by the Judge, thus in
violation of (Allen v. State, 85 Wis. 22, 54 N.W. 999 (1893).)
The Governemnt offered numerous explanations of why but none
of them make sense or are legal or coincide with the record.
When does a Jury stop being a Jury? Can they be re-called in
10 days, a year or 20 years? Can they be spoken to while in their
graves, as Judge Schultz allowed at the Trial? The very basis of
our Judicial System is a Fair and Impartial Jury, as is guaranteed
/

by the Constitution's 5th, 6th, and 14th Amendments. This case
broke the System irreversibly. Now the Goverment claims its all
okay because I recieved a SENTENCE REDUCTION. No where in the
record does it show I recieved a SENTENCE REDUCTION period, let
alone the "words" that I recieved a SENTENCE REDUCTION because
Judge Schultz mistakenly recalled a non-existent Jury and let
them alter their VREDICT on at least one charge. Once that PHANTOM
JURY altered its VERDICT on one charge, all charges must be
VACATED, per the Constitution.
I ASSERT there is no such thing as a "PHANTOM JURY" and
you should too. Relief should be granted.as asked for.

t
\

6

i

II.

DID THE 7th CIRCUIT CASE LAW PRESENTED PROPERLY
INVOKE JURISDICTION IN THE TRIAL COURT?

I filed a MOTION TO VACATE citing Judicial Misconduct in
the Trial Court in September of 2017. (See Exhibit
The Judge politely stated he did not think he had Jurisdiction
and dismissed. Then in July of 2018, I filed a similar Motion.
In this Motion I clearly explained why the Trial Court had
Jurisdiction and I relied on 2017 7th Circuit Case Law. Those
cases were right on point and clearly addressed the issues I
raised: Judicial Misconduct, The Government lying, The lack of
proof in the record, etc. This time the Judge made the most
egregious statement. He said, "...seeing no new issues, I dismiss."
This statement infers he THOUGHT he had Jurisdiction, and yet
he dismissed the first Motion because THOUGHT he DID NOT have
Jurisdiction. This confusion warrants relief in itself. (See Exhibit

/
* *

When taken as a whole, the body of the case law, being so spot on,
directed the lower courts to RELY on the RECORD, not "THE GOVERNMENT".
Here, the Trial Court RELIED on DEFYING LEGAL LOGIC, even though
it was right in front of him. (See Morales v. Johnson, 659 F.3d
588, 2011 U.S. App. (7th Cir.) LEXIS 19272.)
I ASSERT the Trial Court had proper Jurisdiction, and should have
held a HEARING to resolve the matters, and the APPELLATE COURT
should have REMANDED the case back to the Trial Court. Equally,
the Wisconsin Supreme Court should have caught the error and did
not. Then the Federal Western District Court totally missed the
Jurisdictional ISSUE. It all equates to a irreversible violation
of my Constitutional Rights to a Fair Procedure, under the 5th
6th, and 14th Amendments. Relief should be granted as asked for.

f
i

7

t

III. WHEN THE LOWER COURTS FAIL TO REVIEW A CASE IS IT PROPER
FOR THEM TO DISMISS BY DEFAULT AND BLAME THE PETITIONER
FOR NOT DEVELOPING THE ISSUES?
The most recent catch phrase used by the lower courts is that
"KNIPFER has not developed his issues".The truth is the lower
courts have repeatedly failed to properly review the issues
and make "FINDINGS OF FACTS and CONCLUSIONS OF LAW".
Thus, it is the lower courts who have not developed the issues.
Now even the Federal Court relies on a catch phrase, "DEFAULT".
Yet, the courts have not pointed to a particular FAULT or DEFAULT.
When the lower courts fail to do their job, it disrupts the
entire system. When a Litigant points out to a court, an error
in the record, and that court ignores it, we have Judicial Mayhem.
But when a court is SHOWN 8 times or more, where a violation or
error or mistake •: is.-rand again ignores it, we have a total collapse
of Judicial Reliability.

t
1

I ASSERT this Supreme Court should take a special interest in
this case and provide Guidance, Directives, and Sanctions so as
to repair.the broken system and restore my Constitutional Rights.
I ASSERT I have a right to be heard and I have a right to a
Reliable Judiciary per our Constitution. Relief should be granted
as asked for.
CONCLUSION
I have never recieved a "REAL APPEAL". The government has
stated that I did not submit Wisconsin case law, of course I
did. The government tried to bar me under ESCALONA, but I never
had a "DIRECT APPEAL" because the public defender stole the
record. LOOP v. State bars ESCALONA from applying to my case,
but the government doesn't want you to know that. The government
chooses to ignore the true facts of the case. The government has
made so many false claims, it makes me dizzy. I don't think this
Court will be fooled by them, this time.

8
•A

I just re-read everything I have, my briefs, the government's
briefs, and the court rulings. I am more confident than ever that
I have dotted my Is and crossed my Ts "as a litigant". The state
and its agents have misrepresented many things in the record. I
am proud that I properly cited the record and di not resort to
submitting falsehoods to this Supreme Court, or any other court.
I do incorporate the entire record, as I always have.
I believe this Supreme Court has the AUTHORITY & THE WISDOM
to properly adjudicate my issues. This WRIT is PROPER and will
produce a very PRAGMATIC REVIEW.
Respectfully submitted,

l

I swear under penalty of perjury that the foregoing is true
correct and based on my reading of the entire record, to the
best of my knowledge.

i

Dated this<?Ve/ day of UV/te / 2020

/
\

